No, 19-564

 

 

IN THE
Supreme Court of the United States

STATE OF MICHIGAN,
Petitioner,
v.
Eric LAMONTEE BECK,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Michigan

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 30th day of December 2019,
caused one copy of the foregoing Brief in Opposition to be served on the
below-named counsel by first-class mail, postage prepaid, and further
certifies that all persons required to be served have been served:

Heidi Michelle Williams
SAGINAW COUNTY
PROSECUTOR’S OFFICE
111 South Michigan Avenue
Saginaw, MI 48602
(989) 482-6907
hwilliams@saginawcounty.com t

‘ey L. Fisher
Counsel for Respondent
